HHS/OIG-Audit--"Audit of Administrative Costs Claimed Under Parts A and B of the Health Insurance for the Aged and Disabled Program by Associated Insurance Companies, Inc., (A-05-93-00054)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of Administrative Costs Claimed Under Parts A and B of the Health
Insurance for the Aged and Disabled Program by Associated Insurance Companies,
Inc.," (A-05-93-00054)
October 4, 1993
Complete Text of Report is available in PDF format
(5.92 mb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final audit report, prepared by Sheffield, Dallmann and Haley, Ltd., under
contract with the Office of Inspector General, provides the results of an audit
of Medicare Part A and Part B administrative costs totaling approximately $67.4
million claimed by Associated Insurance Companies, Inc. (contractor) for Fiscal
Years ended September 30, 1987 through 1989. The report points out that about
$3.8 million of the claimed costs were unallowable. Also, the auditors point
out that the contractor failed to claim about $0.4 million to which it was entitled.
The auditors recommended financial adjustments and procedural improvements to
correct the weaknesses noted.